TCM Bank, N.A. Cardholder Agreement - Effective: February 17, 2020
This Cardholder Agreement (“Agreement”), the card carrier we send with your credit card, the accompanying sheet entitled “TCM
Bank, N.A. Account Opening Disclosures” and the application you signed or otherwise submitted (collectively, the “Cardholder
Documents”) govern the use of your TCM Bank, N.A. Visa® or MasterCard® credit card (“Card”) account (your “Account”).
All of the Cardholder Documents are part of and are incorporated into this Agreement. By signing (including by any electronic
or digital signature) your Card, your Account application, any accepted sales slip, or any other document in connection with the
use of your Card or your Account, or by using your Card or allowing someone else to use it, you agree to the terms and conditions
of this Agreement. Please read this Agreement thoroughly and retain a copy for your records. As used in this Agreement: we, us,
our, and similar terms mean TCM Bank, N.A., and all its respective parents, wholly or majority owned subsidiaries, affiliates,
predecessors, successors, assigns, employees, officers, and directors (collectively, “TCM”). The words you, yours, and
Cardholder mean all persons responsible for complying with this Agreement, including the applicant and any co-applicant who
applied to open the Account and the person to whom we address Account statements. As the person(s) that asked us to open
the Account, you are the “Primary Cardholder,” and you will have an Account with us. You may request that we issue a Card
to another person and, if we do, that person will be called an “Authorized User” on your Account and the Card will be an
“Additional Card.” The Cards are issued by us, even if the name of another institution appears on the Cards. Visa is a registered
trademark of Visa International Service Association, is and used by us pursuant to license. MasterCard is a registered trademark
of MasterCard International Incorporated, and is used by us pursuant to license.
This Agreement is governed by the substantive laws (excluding laws of conflict) and regulations of the United States
(“federal law”) and the laws and regulations of the State of Florida no matter where the Account is used. We reserve all
our rights with respect to the preemptive effect of any applicable federal laws and/or regulations.
This Agreement is entered between us and you in Florida. We make decisions about granting credit to you from,
extend credit to you under this Agreement from, and accept payments from you in, Florida.
Use of the Card. You may use the Card to obtain legal goods and services from any person or establishment accepting the Card
(“Purchase(s)”), to obtain non-purchase related transactions (“Cash Advance(s)”) from us up to the applicable limits on your
Account and to take advantage of other features of the Card. As used in this Agreement, the term “Purchases” will include Purchases
and Balance Transfers (a “Balance Transfer” is transfer of funds to another creditor initiated by us at your request which may
include transaction fees and adjustments associated with any Balance Transfer), and the term “Cash Advances” will include a)
Cash Advances, b) Convenience Checks (as used in this Agreement, the term “Convenience Check” means any check we
provide to you for accessing your Account to obtain credit), c) obtaining funds through an automated teller machine (ATM) or a
financial institution, d) purchasing a wire transfer, money order, foreign currency, travelers cheques, savings bonds, lottery
tickets, gift cards or stored value load, e) purchase of cryptocurrency, including, but not limited to Bitcoin, or (f) engaging in
another similar transaction. As used in this Agreement, all amounts charged which include the Annual Fees (as described below),
if any, or other fees, and any Finance Charges imposed under the Agreement, will be called “Charges”. Charges include (but are
not limited to) any Purchase, Balance Transfer, Cash Advance or Convenience Check in which you have evidenced an intent to
incur a Charge, regardless of whether you have signed a charge form.
You are responsible for paying all amounts charged to the Account. You agree to notify us at once if the Card or any Convenience
Checks we may issue on your Account are lost or stolen, or if you suspect they are being used without your permission. You
agree to take reasonable steps to prevent the unauthorized use of any Card, Convenience Checks and your Account. You agree to
sign the Card immediately when you receive it. You agree to use the Account (including any Card and Convenience Checks) only
for legal purchases of goods and services and not to use the Account, Cards and/or Convenience Checks for any unlawful purposes,
including the purchase of goods or services prohibited by applicable laws or regulations. You expressly agree that Cards may not
be used for gambling or wagering purposes, whether online or otherwise, even if it otherwise permitted by applicable law. If
you or any Authorized Users do use your Cards for unlawful purposes, including, without limitation, illegal internet gambling,
and /or for any purposes which we do not permit, you will be in default under this Agreement and we may terminate your Account,
but you still will be liable to us for all Charges relating to such transactions and all other transactions on your Account. You should
not use the Card after the expiration date. You must immediately return the Card to us or destroy it if we ask you to. If you want
to cancel your Account or any Cards, you must contact us and destroy the applicable Card. We reserve the right to deny
authorization for any requested Charge even if the transaction would not cause you to exceed your credit limit or your Account is
not in default. You agree to use your Account for personal, family or household purposes and not to use your Account for business
or commercial purposes.

We are not responsible for any losses you may incur if we do not authorize a requested Charge or if anyone refuses to accept your
Card or any Convenience Check for any reason. You may obtain Cash Advances and Balance Transfers as permitted for your
Account as described in this Agreement, but you may not use these to pay any amount you owe us or any of our affiliates or agents.
We are not liable for any losses that may result when our services are unavailable due to reasons beyond our control.
Credit Line Maintenance: You agree to provide financial statements on the Cardholder as requested by us. Failure to do so may
result in the suspension of charging privileges on your Account. You also agree to provide us with any information required by
law or regulation, including information that may be required under the USA Patriot Act.
Transfers: You may not transfer your Account or any of your rights and obligations under this Agreement. Any such transfer
will be void.
Additional Cards: You, as the Primary Cardholder, are responsible for all Charges on your Account. Any Additional Cards
may be canceled by you or by us. You agree to make sure that any Additional Cards issued on your Account are used in a
manner consistent with this Agreement. You also authorize us to discuss your Account with Authorized Users in the course
of maintaining your Account. We may, in our sole discretion, pursue Authorized Users for payment of their Charges if you fail to
pay those Charges. If you want to end an Authorized User’s privilege to use your Account, you must recover and destroy that
person’s Card. If you do not, you will continue to be liable for any charges made, even if you have advised us of your wish to
cancel that person’s Card privileges, unless you tell us to cancel all Cards and establish a new Account for you or you report
the Card as lost or stolen. You agree to notify each Authorized User that they are subject to all applicable sections of this
Agreement.
Credit Limit: The Credit Limit is the maximum amount of credit available on your Account. We have provided you a
separate written notice stating the applicable credit limit(s) on your Account. In addition, your monthly statements will show the
amount of credit available to you for Purchases, Balance Transfers and Cash Advances and the ANNUAL PERCENTAGE
RATES (APRs) for Purchases, Balance Transfers and Cash Advances, as of the monthly statement date. You agree not to
use the Account in any way that would make the unpaid balance of your Account exceed the applicable credit limit. We are not
obligated to honor any Card transaction that would cause the unpaid balance of your Account to exceed applicable credit limits
(“Over Limit Transactions”). However, if we, in our discretion, honor any Over Limit Transaction, you agree to promptly pay the
amount more than the applicable credit limit. At our discretion, and subject to applicable law, we may increase, reduce your Credit
Limit or the Balance Transfer or Cash Advance portions of your Credit Limit or cancel your Credit Limit, at any time. A change
to your Credit Limit or any portion thereof does not affect your obligation to pay us.
Promotional Offers: At our discretion, we may offer you a promotional ANNUAL PERCENTAGE RATE for all or a part of any
balances or for certain types of transactions. The period of time for which the promotional rate applies may be limited. Any
applicable promotional rate, the corresponding periodic rates, and the period of time during which it will be in effect will appear
on the Account Opening Disclosure or be included on a promotional letter. Any promotional rate offer will be subject to the
terms of the offer and this Agreement.
Renewal of Cards and Cancellation: The Card will be valid until the expiration date embossed on the Card. We will issue you
renewal or replacement Cards before the current Card expires unless your Account is cancelled by you or by us or your Account
is not in Good Standing at the time of such expiration. Your Account is in “Good Standing” if it is an open and active account
with no holds or blocks present on the account.
Liability for Charges and Finance Charges: You may use the Card to obtain Purchases, Balance Transfers and Cash
Advances up to the applicable credit limits on your Account. You are liable to us for all Charges you make and all Charges
made by holders of any Cards and Additional Cards issued on your Account. Authorized Users using a Primary Cardholder’s
Account are not liable for obligations incurred by the Primary Cardholder or by other Authorized Users. However, by each use
of an Additional Card, the Authorized User indicates his or her agreement to pay us for that transaction and related Charges if
you fail or refuse to pay that obligation.
Payments: Each month’s Total Minimum Payment (as defined below) for your Account is due by the payment due date (“Payment
Due Date” is the date shown on your monthly statement by which your payment is due) shown on your monthly statement. The
Total Minimum Payment will include any amount past due and over the applicable credit limit. You must pay us in U.S.
currency, with a draft or a check drawn on a U.S. bank and payable in U.S. dollars, with a negotiable instrument payable in U.S.

dollars and clearable through the U.S. banking system, or with a telephonic or electronic payment authorization in U.S. funds.
You acknowledge that we process most payment checks electronically. We use the information on your check to create an
electronic funds transfer. Each time you send a check, you authorize us to make a one-time electronic funds transfer. You also
authorize us to process your check as a check or paper draft, as necessary. Funds may be withdrawn from your Account as soon
as the same day we receive your payment. You will not receive your cancelled check because we are required to destroy it. We
will retain an electronic copy. If we decide to accept a payment made in some other form, your payment will not be credited
until it is converted into one of the forms described in the previous sentence. We may charge you any costs we incur in converting
your payment.
If we do not receive payment by the Payment Due Date or if a payment is returned to us unpaid, we may charge your Account a
Late Payment Fee or a Returned Payment Fee (as described below) to cover collection costs on that payment in addition to any
other applicable fees. All payments, if received by us prior to 5:00 pm Eastern Standard Time, shall be considered made on the
date received at the payment address as shown on your monthly statement. If payment is received after 5:00 pm Eastern Standard
Time on any date, payment will be deemed to have been received the following banking day. We may accept late payments,
partial payments, or any payments marked as being payment in full or as being a settlement of any dispute without losing any
of our rights under this Agreement or under the law. Our acceptance of such payments does not mean we agree to change this
Agreement in any way. You agree to pay all court costs plus all reasonable attorney’s fees if we must refer your Account to any
attorney for collection, subject to the law of your jurisdiction.
Availability Hold: We may, at our discretion, withhold a portion of the available credit on your Account up to the amount of
any payments to assure that the payment is honored.
Monthly Statement – Total Minimum Payment: The Total Minimum Payment required is the new balance shown on your
monthly billing statement if the amount is equal to or less than $15.00. Otherwise, it is the greater of: (A) 3.0% of the new
balance for such month (“New Balance”) (rounded up to the nearest dollar), (B) $15.00, or (C) 1% of the New Balance (rounded
up to the nearest dollar) plus any unpaid FINANCE CHARGES and unpaid fees. If applicable, the Total Minimum Payment
will include any amount over the credit limit and any amount past due. You may pay more than the Total Minimum Payment, or
you may pay the total New Balance at any time. Your Total Minimum Payment will be applied in any order at our discretion.
Payments in excess of the Total Minimum Payment will be applied to balances with the highest APR first and then to lower rate
balances in descending order of APRs.
How to Avoid Paying Interest:
Grace Period: A grace period is the period between the end of a billing cycle and the date your payment is due during which credit
extended may be repaid without incurring FINANCE CHARGES. During this period, you may not be charged interest as long
as you pay your balance in full by the due date.
Grace Period for Purchases (including Balance Transfers): Your Payment Due Date is at least 23 days after the close of each
billing cycle. We will not charge you any interest on Purchases (including Balance Transfers) if you pay your entire balance in
full by the due date of each month. If you do not, you will accrue FINANCE CHARGES on all Purchases from the date the
Purchase is posted to your Account.
If you are not carrying a balance, then you can avoid paying interest on new Purchases if you pay your balance in full by the
Payment Due Date. If you do not pay your balance in full by the Payment Due Date, you will be charged interest on the unpaid
portion of the balance. You will also be charged interest on Purchases in the new billing cycle starting on the date each Purchase
is made.
Grace Period for Cash Advances (including Convenience Checks and other charges as defined on page 1): On Cash
Advances there is no grace period, and FINANCE CHARGES on Cash Advances are always assessed from the day of the Cash
Advance transaction or the first day of the billing cycle in which the Cash Advance is posted to your Account, whichever is later,
until the day we receive payment in full of all outstanding Cash Advances.

Calculation of Monthly Periodic Rate:

A. The “Monthly Periodic Rate” for Purchases, Balance Transfers and Cash Advances for each billing cycle is 1/12th of the
ANNUAL PERCENTAGE RATE for Purchases, Balance Transfers, or Cash Advances, respectively, in effect for that billing
cycle, rounded to the nearest ten thousandth of a percentage point.
B. The Account Opening Disclosure states the ANNUAL PERCENTAGE RATES applicable to your Account, subject to
paragraph C below. Please call us at 1-800-883-0131 or write to us at TCM Bank, N.A., PO Box 31537, Tampa, FL 33631, to
receive an additional copy of the Account Opening Disclosures or to learn the most current ANNUAL PERCENTAGE
RATES.
C. For purposes of this Agreement, the Prime Rate used to determine your ANNUAL PERCENTAGE RATES for a billing
cycle is the highest Prime Rate listed in The Wall Street Journal on the last business day of the calendar month prior to your
statement closing date. Your APR will increase if the Prime Rate increases. Your minimum payment or the number of payments
will increase if your APR increases. In the event that The Wall Street Journal ceases to be published or ceases to publish the Prime
Rate, we may refer to the Prime Rate published in any other newspaper of general circulation in New York, New York, or we may
substitute a similar reference rate at our sole discretion. Subject to applicable law, any balances transferred from another account
to this Account shall be governed by the terms and conditions of this Agreement.
Finance Charge Calculation Method and Computation of Average Daily Balance Subject to Finance Charge.
How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new Purchases).”
We calculate periodic rate FINANCE CHARGES separately for each type of balance (e.g., Purchases, Balance Transfers, and
Cash Advances). For a billing cycle, we figure a portion of the FINANCE CHARGE on your Account by multiplying the Monthly
Periodic Rate times the respective Average Daily Balances (including current transactions). There is a $1.00 minimum FINANCE
CHARGE.
“Average Daily Balances” means the following:
• To get the Average Daily Balance for Purchases and Balance Transfers, we take the beginning balance of Purchases and Balance
Transfers on your Account each day, add any new Purchases and Balance Transfers, and subtract any payments or credits, nonaccruing fees, and unpaid FINANCE CHARGES during the billing cycle. This gives us the daily balance for Purchases and
Balance Transfers. Then, we add up all the daily balances of Purchases and Balance Transfers for the billing cycle and divide the
total by the number of days in the billing cycle. This gives us the Average Daily Balance for Purchases.
• To get the Average Daily Balance for Cash Advances, we take the beginning balance of Cash Advances on your Account each
day, add any new Cash Advances, and subtract any payments or, non-accruing fees, and unpaid FINANCE CHARGES during
the billing cycle. This gives us the daily balance for Cash Advances. Then, we add up all the daily balances of Cash Advances
for the billing cycle and divide the total by the number of days in the billing cycle. This gives us the Average Daily Balance for
Cash Advances.


Credits received from merchants are effective as of the posting date.



For FINANCE CHARGE calculation purposes, the billing cycle begins on the day after the Statement/Closing date of
the previous billing cycle and includes the Statement/Closing Date of the current billing cycle. The number of days in the
billing cycle may vary.

Fees: We may charge the following fees, subject to applicable law:
1. ANNUAL FEE: You agree to pay any Annual Fee shown on the Account Opening Disclosure accompanying this Agreement
in the amount shown.
2. RETURNED PAYMENT: You agree to pay a fee of up to $40 for each returned payment. The returned payment fee will
not exceed the Total Minimum Payment and will never exceed the amount of the payment being returned.
3. STOP PAYMENT ORDERS: If you request us to stop payment on a Convenience Check drawn on your Account, you agree
to pay a fee of $29.

4. LATE PAYMENT FEE: You agree to pay a late fee of up to $40 if we do not receive your minimum payment by the
Payment Due Date each month. In no event will your late fee exceed the Total Minimum Payment. You will only be charged
one late payment fee for any monthly Total Minimum Payment which is not paid by the Payment Due Date shown on your
statement.
5. RESEARCH FEE: You agree to pay $3 for each photocopy of a sales slip you request and $4 for each duplicate copy of a
monthly statement you request. However, we will not impose these fees if you request such items in connection with a billing error
dispute which you have notified us of in writing.
6. EXPEDITED PAYMENT FEE: You agree to pay $10 for each payment initiated via telephone and assisted by a customer
service representative for same day payments.
7. TRANSACTION FEES:
Transaction Fee for Cash Advances: For each Cash Advance, we add an additional Cash Advance Fee of either $5 or 3% of
the U.S. dollar amount of the Cash Advance, whichever is greater. There is no maximum Cash Advance Fee. The Cash Advance
Fee is a FINANCE CHARGE. This Cash Advance Fee may cause the ANNUAL PERCENTAGE RATE on the billing
statement on which the Cash Advance first appears to increase.
Transaction Fee for Charges Made in Foreign Countries: If you incur a Charge in a foreign currency or foreign countries,
it may be converted into U.S. dollars. If the foreign currency is converted into U.S. dollars, the exchange rate used to convert
the currency used in an international transaction into the billing currency shall, in each instance, be either a rate selected by
Visa® or MasterCard®. The conversion may occur after the transaction date, and the conversion rate may differ from the rate
of exchange in effect at the time of the transaction. You agree to pay the converted amount to us in U.S. dollars. In addition,
you agree to pay a Foreign Transaction Fee of 1.0% of the U.S. dollar amount of each transaction made in a foreign currency,
in U.S. dollars outside the U.S., or (whether in a foreign currency or in U.S. dollars) with a foreign merchant. The Foreign
Transaction Fee is a FINANCE CHARGE. This Foreign Transaction Fee may cause the ANNUAL PERCENTAGE RATE
on the billing statement on which the Charge made in a foreign currency first appears to increase.
Transaction Fee for Balance Transfers: For each Balance Transfer, we will add a Balance Transfer Fee of the greater of $5
or 3% of the U.S. dollar amount of the Balance Transfer. There is no maximum Balance Transfer Fee. The Balance Transfer
Fee is a FINANCE CHARGE. The Balance Transfer Fee may cause the ANNUAL PERCENTAGE RATE on the billing
statement on which the Balance Transfer first appears to increase.
Default: Subject to applicable law, we may consider your Account to be in default at any time if you fail to pay us any payment
when it is due; if you attempt to exceed or exceed the applicable credit limits on your Account; if your payment is returned,
rejected, or not paid by your bank or financial institution or if your payment cannot be processed; if you die or become legally
incapacitated; if any government authority takes action that TCM believes adversely affects your financial condition or ability
to repay the debt or we have any other reason to believe you may not be able to meet your obligations to us; if you enter a
hardship or workout program ; if we determine that you have made any false, incomplete or misleading statement to us; if you
breach any other promise or obligation under this Agreement or any other agreement with us or our affiliates; or if we have any
reason to believe you may not be creditworthy . Upon your default and subject to any limitations or requirements of applicable
law, you agree to pay all other reasonable costs, including reasonable attorney’s fees, incurred by us in collecting the balance
due, including FINANCE CHARGES, if any, whether suit is brought against you, and in protecting ourselves from any harm
that we may suffer as a result of your default, or nonuse of your Card . We may also, upon your default, and subject to applicable
law, declare the entire amount of your obligations to us immediately due and payable and suspend or cancel your Account
privileges.
Delinquency Assessments: Your Account may be considered delinquent if you fail to pay us at least the Total Minimum Payment
due by the Payment Due Date shown on each monthly statement. If your Account remains delinquent at the statement closing date,
subject to applicable law, we will add a Late Payment Fee as described above.
Suspension/Cancellation: In addition to any of the actions we may take under this Agreement, we may suspend or cancel your
Account privileges at our sole option, subject to applicable law, at any time with or without cause and without giving you notice,

including but not limited to a situation in which (1) you cease to be an account holder in good standing with respect to any other
accounts you may have with TCM, (2) you are in default, or (3) you stop using your Account. Any such action on our part will not
cancel your obligations to pay us the outstanding balance, FINANCE CHARGES, and other charges due on your Account under
the terms of the Agreement in effect at the time of the cancellation or suspension of your Account or as subsequently amended. You
agree to pay us all such obligations despite any suspension or cancellation of your Account.
Rules for Convenience Checks: You may request a stop payment on a Convenience Check by providing us with the access check
number, dollar amount, and payee exactly as they appear on the Convenience Check. Oral and written stop payment requests on a
Convenience Check are effective for six months from the day that we place the stop payment.
You may not issue a postdated Convenience Check on your Account. If you do postdate a Convenience Check, we may elect to
honor it upon presentment or return it unpaid to the person that presented it to us for payment, without in either case waiting for
the date shown on the Convenience Check. We are not liable to you for any loss or expense arising out of the action we elect to
take.
Rewards: Your Account might provide you with the opportunity to earn rewards. If it does, we will separately provide you with
a reward guide containing information and terms about your rewards. If you default, as per the conditions listed above, TCM has
the right to forfeit your rewards earned and the ability to earn future rewards.
Waiver: Our failure to exercise any of our rights under this Agreement, or our waiver of our rights on any one occasion, shall not
constitute a waiver of such rights on any other occasion.
Consumer Reports: You authorize us and our affiliates to make whatever credit investigations we deem appropriate and to obtain
and exchange any information we may receive from consumer reports, consumer reporting agencies and other sources. We may ask
consumer reporting agencies for consumer reports of your credit history. Upon request and as otherwise required by applicable
law, we will tell you whether a consumer report was requested and the name and address of the agency that furnished it. We may
report information about your account to credit bureaus. Late payments, missed payments, or other defaults on your
account may be reflected in your credit report. If we determine that your Account is past due, adverse credit information may
also appear on the consumer reports of any Authorized Users on your Account.
If you believe we have furnished inaccurate or incomplete information about you or your Account to a credit reporting agency,
write to us at TCM Bank, N.A., PO Box 31537, Tampa, FL 33631. Please include your name, address, home phone number and
Account number, and explain what you believe is inaccurate or incomplete.
Telephone Monitoring: From time to time, we may monitor and record telephone calls between you or Authorized Users and us
for reasonable business purposes including to assure the quality of our customer service.
Consent to Receive Communications: Unless expressly prohibited by law, you expressly agree and consent that we may contact
you using an automatic telephone dialing system, pre-recorded voice, voicemail or messaging service, text messaging, email
messaging or otherwise and leave you voice, prerecorded or artificial voice messages or send you text messages, emails or other
electronic messages for any purposes, including the servicing and/or collecting of your account, to offer you products and services
that may be of interest to you, and for any other informational or marketing purposes. You agree that we may contact you at any
telephone number, including, but not limited to your home telephone number, and cellular telephone number; any email address;
or using any other contact information that you provide to us at any time whether in connection with the opening of your account
or thereafter. You agree to notify us promptly if any of your contact information changes and only give us telephone numbers and
email addresses that belong to you and at which you may be contacted.
You agree that this consent is valid regardless of whether the number we use to contact you is assigned to any service for which
you may be charged for the call, text message(s), or other communications.
You agree that you are not required to provide this consent as a condition to receiving any product or service from us and
acknowledge that you have the right to revoke this consent or change or remove any of the telephone numbers or email addresses
at any time by contacting us at 1-800-883-0131 or by any other reasonable means.
Mobile Devices: You or an Authorized User may choose to load your Account information and/or Card into a third party app
on a smart phone or other electronic device, such as through a mobile wallet, which may be used to make Charges without

presenting a Card (“Device”). You agree that any such Charges using your Card or Account made through such a Device are
covered by this Agreement. You further acknowledge and agree that we have no control over the Device and cannot
guarantee or warrant its performance.
You should protect the security of the Device in the same manner and with the same degree of care as you protect your Account,
Card or any other valuable information. You agree to be solely responsible for any fees or charges related to such a transaction
made through the Device such as mobile carrier fees or messaging charges. We may, at any time, in our sole discretion, partially
or fully restrict your ability to make Charges through such a Device. You agree to notify us promptly if you remove your
Account or Card information from any such Device.
Benefits and Services: We reserve the right to add, modify, or delete any benefit or service offered with the Card at any time without
notice to you unless otherwise required by applicable law.
Change of Billing Address – Notices: You must notify us immediately of any change in your billing address. Any notice given
by us shall be deemed to be given when deposited in the United States Mail, postage prepaid, addressed to you at the latest billing
address shown on our records.
Change of Rates, Fees, Terms – Assignment: We may assign or transfer Card accounts, including, your Account, this Agreement or
our rights and obligations under your Account or this Agreement, to our affiliates or to some other financial institution at any
time. Subject to applicable law, the person or entity to whom we make any such sale, assignment or transfer is entitled to all our
rights under this Agreement, to the extent sold, assigned or transferred. We may also change the rates, fees, and terms of this
Agreement at any time, in accordance with applicable law. We will notify you of changes if we are required to do so by law, and
you may be given the opportunity to reject those changes to the extent required by law or otherwise in our discretion. If you
choose not to accept those changes, you may terminate this Agreement by notifying us in writing. However, your Account will
be closed, and you will remain responsible for all Charges made before you terminated the Agreement.
Revocation and Voluntary Cancellation: We can revoke your right to use the Card at any time. We can do this whether you
have violated this Agreement and without giving you notice. If we revoke the Card, you must return the Card to us if we request.
Also, if a merchant that accepts cards asks you to surrender an expired or revoked Card, you must do so. You may not use the
Card after it has expired or after it has been revoked. If you ask us to cancel your Account, but you continue to use your Account
after the date of cancellation, we will consider such use as your request for reinstatement of your Account. We may then reinstate
your Account and bill you accordingly.
Severability: If any part of this Agreement conflicts with applicable law, that law will control, and this Agreement will be
considered changed to the extent necessary to comply with that law. If any part of this Agreement is determined by a court of valid
jurisdiction to be invalid, the remainder of this Agreement will remain in effect.
JURY TRIAL WAIVER. THE PARTIES HEREBY WAIVE ANY RIGHT TO TRIAL BY JURY.
Interest Rate Limitation. If, at any time and for any reason whatsoever, the interest rate payment hereunder shall exceed the
maximum rate of interest permitted to be charged by TCM under applicable law, such interest rate shall be reduced automatically
to the maximum rate of interest permitted to be charged under applicable law. Without limiting the foregoing, you will not be held
liable for fees and charges greater than any maximum allowed under applicable law.
Your Rights Under the Military Lending Act: Federal law provides important protections to members of the Armed Forces
and their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed
Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable
to the credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold in
connection with the credit transaction; any application fee charged (other than certain application fees for specified credit
transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account). To
hear the Military Lending Act Information, call 1-800-883-0131.
Your Billing Rights – Keep This Document for Future Use. This notice tells you about your rights and our responsibilities under
the Fair Credit Billing Act.

What To Do If You Find a Mistake on Your Statement. If you think there is an error on your statement, write to us at: TCM Bank,
N.A., Customer Service, P.O. Box 31481, Tampa, FL 33631-3481.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automatic payment is scheduled, if you want to stop payment on the amount you think is
wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential
errors, and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter.
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe, and the date payment is due. We may then report you as delinquent if you
do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within ten (10) days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must
tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter
has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at: TCM Bank, N.A.,
Customer Service, P.O. Box 31481, Tampa, FL 33631-3481.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will
tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
State Laws Require the Following Notices: California Residents: After credit approval, each applicant shall have the right to
use this account to the extent of any limit set by the creditor and each applicant may be liable for all amounts extended under
this account to any joint applicant. Married Wisconsin Residents: Your signature confirms that this credit obligation is being
incurred in the interest of your marriage or family. If the credit card for which you are applying is granted, you will notify TCM
Bank if you have a spouse who needs to review notification that credit has been extended to you.
Authorization: You expressly authorize your wireless carrier (AT&T, Sprint, T-Mobile, US Cellular, Verizon, or any other
branded wireless operator) to disclose to TCM and its third-party service providers your mobile number, network status, customer
type, customer’s role, billing type, mobile device identifiers (IMSI and IMEI) and other subscriber status and device details, if
available, solely to verify your identity and prevent fraud for the duration of the relationship.
Privacy of Information: Please refer to our Privacy Policy for information about TCM’s privacy practices.
Unauthorized Use of Your Account: Please notify us immediately at 1-800-883-0131 of the loss or theft of your Card or
Convenience Checks or of any other possible unauthorized use of your Account.

